               United States Department of the Interior
                                   Office of Inspector General
                                         Central Region Audits

                                     134 Union Boulevard, Suite 510

                                      Lakewood, Colorado 80228





                                                                   Report No. C-YS-BLM-0001-2007
                                                                                    March 1, 2007


Memorandum


To:           Director, Bureau of Land Management
              Assistant Secretary for Policy, Management and Budget
                 (Attention: Associate Director for Finance, Policy and Operations)

                             0/1-- r-­
                              /1


From:	        Jack Rouch
              Regional Auo!t Manager

Subject:	     Verification Review of the Two Recommendations From Our Audit Report,
              "Native American Graves Protection and Repatriation Activities, Bureau of Land
              Management" (Report No. 00-1-377)

We completed a verification review of the two closed recommendations from the subject aud it
report. The objective of this review was to determine whether the two recommendations were
implemented as reported by the Bureau of Land Management (BLM) .

We determined that Recommendation 1 was not implemented and Recommendation 2 was
implemented. We request that PFM reinstate Recommendation 1 and take appropriate follow-up
action . The status of the recommendations is summarized in the Appendix. The results of the
verification review are summarized in the Results of Review section.

                                            Background

Our May 2000 audit report "Native American Graves Protection and Repatriation Activities,
Bureau of Land Management" (No. 00-1-377) made two recommendations to correct deficiencies
related to compliance with requirements of the Native American Graves Protection and
Repatriation Act (NAGPRA) and BLM policy.

In a March 31, 2000 response to the draft audit report, BLM concurred with the two
recommendations. BLM provided a target date of September 30, 2002 , for implementation of
Recommendation 1. Based on BLM's response and subsequent information they provided, we
considered Recommendation 1 resolved but not implemented and Recommendation 2 resolved
and implemented. In May 2000 we referred Recommendation 1 for tracking of implementation
to the Office of Policy, Management and Budget (PMB) and in December 2000, we received a
Memorandum from the Office of Financial Management (PFM) stating that Recommendation 1
was implemented and closed.

                                   Scope and Methodology

The scope of our review was limited to determining whether BLM implemented the
recommendations as reported. To accomplish our objective, we reviewed the supporting
documentation that BLM submitted to close the recommendations. We also interviewed BLM
personnel and reviewed additional information. We did not perform site visits or conduct
detailed fieldwork to determine whether the underlying deficiencies identified in the original
audit report have been corrected.

This review was not conducted in accordance with the Government Auditing Standards issued by
the Comptroller General of the United States.

                                       Results of Review

Recommendation 1: Develop and implement an overall action plan for the Utah State
Office to ensure completion in an expeditious manner of all NAGPRA requirements
regarding human remains (inventorying, determining tribal affiliation, consulting with the
tribes, formally reporting, and repatriating, as appropriate).

In response to the recommendation, BLM's Utah State Office developed the NAGPRA Work
Plan, dated June 5, 2000. Although PFM reported in a December 2000 closure memorandum
that BLM had completed the actions required to implement Recommendation 1, we found that
the Work Plan had not been fully implemented. Specifically, we found that while BLM made
significant progress in implementing the Work Plan, it had not submitted information related to
unidentified remains to the National Park Service Manager of the NAGPRA Program. A BLM
headquarters official stated that based on a recent review of applicable NAGPRA files at the
Utah State Office, additional work was needed to complete the Work Plan. To complete the
additional work, in January 2007, BLM prepared a revised NAGPRA Action Plan for the Utah
State Office. Until the revised plan actions are completed, we consider Recommendation 1 not
implemented.

Recommendation 2: Ensure that BLM senior-level managers monitor compliance with the
BLM policy regarding the prohibition of reburying Native American remains on BLM-
managed public land and take appropriate action for noncompliance with the policy.

In response to the recommendation, BLM Colorado State officials, who had not complied with
the policy, issued Instruction Memorandum CO-2000-016 on February 18, 2000. The policy
reaffirmed the prohibition of reburial of repatriated, removed, or transferred human remains
and/or other NAGPRA materials on public lands. BLM also included its policy regarding the
prohibition of reburying Native American remains on BLM-managed public lands in the BLM
Manual Handbook H-8120-1 "Guidelines for Conducting Tribal Consultation," dated December
3, 2004. BLM issued new policy in IM 2007-002 "Bureau of Land Management (BLM)
Reburial Policy on BLM Lands," dated October 11, 2006, which states that “Reburial of
NAGPRA items on public lands may be authorized on a case-by-case basis.” Based on BLM’s
corrective actions, we consider Recommendation 2 to be implemented.
                                               2
                                           Conclusion

At the exit conference on February 6, 2007, we informed both BLM and PFM officials that we
concluded that Recommendation 1 was not implemented and Recommendation 2 was
implemented and properly closed. We request that PFM reinstate Recommendation 1 and take
appropriate follow-up action. BLM should provide PFM the revised NAGPRA Action Plan for
the Utah State Office, a target date for implementation, and the title of a responsible official.
When completed, BLM should provide documentation to PFM to support that the Action Plan
was fully implemented.

                                   Responding to the Report

We request that PFM provide a written response to this report by April 16, 2007, indicating
whether it reinstated Recommendation 1. If applicable, the response should provide PFM’s
reasons for not reinstating the recommendation.

If you have any questions regarding this report, please call me at 303-236-9243.



cc:    Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
       Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Bureau of Land Management
       Focus Leader for Management Control and Audit Follow-up
       Group Manager, Division of Cultural and Paleontological Resources and Tribal
            Consultation
       National Curator and NAGPRA Coordinator, Division of Cultural and Paleontological
            Resources and Tribal Consultation




                                                3
                                                        Appendix

 STATUS OF PRIOR AUDIT REPORT RECOMMENDATIONS

Recommendation        Status              Action Required

      1            Resolved and     We are requesting the Office
                  Not Implemented   of Financial Management
                                    reinstate the recommendation.
                                    BLM should provide the
                                    revised NAGPRA Action Plan
                                    for the Utah State Office,
                                    including the target date for
                                    implementation and the title of
                                    the official responsible for
                                    implementation.

      2            Resolved and     No Action Required.
                   Implemented




                        4
